WAIVER
Supreme Court, U.S
FILED
"

Supreme Court of the United States

NOV

No. 20-6250
Kyle A. Box
(Petitioner)

1 8 2020

OFFICE
EVOF THE CLERK

New York
(Respondent)

v.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
LEI am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
f
inipits
Signature
ja
Date:

Ill )020
rlkt, S.
S

(Type or print) Name
0 Mr.
Firm

US
0 Mrs.

efFeman Certmh3 DIsi-rki- Misr-no-Ss

V9-5 0-rsenai R-1->.
City & State Ocl--4-ach:nn-n)
Phone C315)9.a6 - 3 6 3

0 Miss

C.o—

Address

Zip

rata ( 1_

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Obtain status of case on the docket. By phone at 202-479-3034 or via the inter et t?lECEIVED
http://www.supremecourtus.gov. Have the Supreme Court docket number av labliVni,

uv 2 7 2020

OFF/CE
OFCTHE
S
UPREA4E
OUR
cLERK

T

Supreme Court of the United States

Kyle A. Box
(Petitioner)
No. 20-6250

v.
New York
(Respondent)

To X r15-1-j no\

5,

ae
1 4MonCov IV
Counsel for Respondent:
}

NOTICE IS HEREBY GIVEN pursuant to Rule 12.3 that a petition for a writ of
certiorari in the above-entitled case was filed in the Supreme Court of the United States
on August 20, 2020, and placed on the docket November 6, 2020. Pursuant to Rule 15.3,
the due date for a brief in opposition is Monday, December 7, 2020. If the due date is a
Saturday, Sunday, or federal legal holiday, the brief is due on the next day that is not a
Saturday, Sunday or federal legal holiday.
Beginning November 13, 2017, parties represented by counsel must submit filings
through the Supreme Court's electronic filing system. Paper remains the official form of
filing, and electronic filing is in addition to the existing paper submission requirement.
Attorneys must register for the system in advance, and the registration process may take
several days. Further information about the system can be found at
https://www.supremecourt.gov/filingandrules/electronicfiling.aspx.

Unless the Solicitor General of the United States represents the respondent, a
waiver form is enclosed and should be sent to the Clerk only in the event you do not
intend to file a response to the petition.
Only counsel of record will receive notification of the Court's action in this case.
Counsel of record must be a member of the Bar of this Court.

dIECOVED
NOV 1 6 2020

Mr. Kyle A. Box
Great Meadow Correctional Facility
P.O. Box 51
Comstock, NY 12821

RECEIVED

Jefferson _County

District Attorney's Office

NOV 2 7 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

NOTE: This notice is for notification purposes only, and neither the original nor a c py should be file

Supreme Court.

the

JEFFERSON COUNTY DISTRICT ATTORNEY'S OFFICE
Jefferson County Office Building, Seventh Floor,
175 Arsenal Street
Watertown, New York 13601
Telephone: (315) 785-3053
Facsimile: (315) 785-3371

Chief Assistant

Patricia L. Dziuba

District Attorney
Kristyna S. Mills

Assistant District Attorneys

Rodney W. Kyle
Cassie L. Trangsrud
Nolan D. Pitkin
Krista A. Kleffner
David R. Ladd

Senior Assistants

Nicole L. Kyle
Steven D. Cole

November 18, 2020
Clerk, Supreme Court of the United States
Supreme Court of the United States
U.S. Supreme Court Building
One First Street, N.E.
Washington D.C. 20543

Re:

People v. Kyle A. Box
Docket No. 20-6250
Indictment No. 106-15

Dear Clerk of the United States Supreme Court:
Please find the enclosed Waiver regarding the above matter.
Thank you.
Sincerely,

wAkri S nws kJ
Kristyna S. Mills
District Attorney
KSM:amh
Enclosures
cc: Kyle A. BOx

RECEIVED
NOV 2 7 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

